No.

IN THE

SUPREME COURT OF THE UNITED STATES

LOGAN BROOKS DRINKARD,
Petitioner,
v.
MARK S. INCH,
SECRETARY, FLORIDA DEPARTMENT OF
CORRECTIONS,
Respondent.

On Petition for Writ of Certiorari
to the Eleventh Circuit Court of Appeals

PETITION FOR WRIT OF CERTIORARI

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

i
A. QUESTIONS PRESENTED FOR REVIEW
In a case where the prosecution charged both a
greater offense and a lesser included offense in the
same charging document, and where the jury found the
Petitioner guilty of the greater offense – but not guilty
of the lesser included offense – whether constitutional
double jeopardy principles prohibit a conviction on the
greater offense in light of the jury’s not guilty verdict
for the lesser included offense.

ii
B. PARTIES INVOLVED
The parties involved are identified in the style of
the case.

iii
C. TABLE OF CONTENTS AND TABLE OF
CITED AUTHORITIES
1.

TABLE OF CONTENTS

A.

QUESTION PRESENTED FOR REVIEW . . i

B.

PARTIES INVOLVED . . . . . . . . . . . . . . . . . . ii

C.

TABLE OF CONTENTS AND TABLE OF
AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . iii
1.

Table of Contents . . . . . . . . . . . . . . . . iii

2.

Table of Cited Authorities . . . . . . . . . . v

D.

CITATION TO OPINION BELOW . . . . . . . . 1

E.

BASIS FOR JURISDICTION . . . . . . . . . . . . 1

F.

CONSTITUTIONAL PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

G.

STATEMENT OF THE CASE . . . . . . . . . . . . 2

H.

REASON FOR GRANTING THE WRIT . . . . 6
The Court should resolve the following
question for which the courts in this
country are split: in a case where the
prosecution charged both a greater
offense and a lesser included offense in
the same charging document, and where
the jury found the Petitioner guilty of the

iv
greater offense – but not guilty of the
l esser i ncl uded o f f e n s e – do
constitutional double jeopardy principles
prohibit a conviction on the greater
offense in light of the jury’s not guilty
verdict for the lesser included offense . . . . . . 6
I.

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . 23

v
2.

TABLE OF CITED AUTHORITIES

a.

Cases

Acquah v. State, 686 A.2d 690
(Md. Ct. Spec. App. 1996) . . . . . . . . . . . . 20-21
Brown v. Ohio, 432 U.S. 161 (1977) . . . . . . . . . 13-14
Burford v. State, 8 So. 3d 474
(Fla. 4th DCA 2009) . . . . . . . . . . . . . . . . . . . . 9
Drinkard v. State, 843 Fed. Appx. 200
(11th Cir. 2021) . . . . . . . . . . . . . . . . . . . . . . . . 1
Filmon v. State, 336 So. 2d 586 (Fla. 1976) . . . . . . 11
Hicks v. State, 414 So. 2d 1137
(Fla. 3d DCA 1982) . . . . . . . . . . . . . . . . . 16-21
Mahaun v. State, 377 So. 2d 1158 (Fla. 1979) . . . . 16
McCreary v. State, 371 So. 2d 1024
(Fla. 1979) . . . . . . . . . . . . . . . . . . . . . 10-12, 22
Miller v. State, 75 So. 2d 312 (Fla. 1954) . . . . . . . . 11
Ohio v. Johnson, 467 U.S. 493 (1984) . . . . . . . 13-15
People v. Belvin, 366 N.Y.S.2d 893
(N.Y. App. Div. 1975). . . . . . . . . . . . . 16, 20-21

vi
Perkins v. Williams, 424 So. 2d 990
(Fla. 5th DCA 1983) . . . . . . . . 16, 18-19, 21-22
Preston v. State, 56 So. 2d 543 (Fla. 1952) . . . . . . . 11

b.

Statutes

§ 316.191(2)(a), Fla. Stat. . . . . . . . . . . . . . . . . . . . . . 2
§ 775.082, Fla. Stat. . . . . . . . . . . . . . . . . . . . . . . . . 11
§ 775.083, Fla. Stat. . . . . . . . . . . . . . . . . . . . . . . . . 11
§ 775.084, Fla. Stat. . . . . . . . . . . . . . . . . . . . . . . . . 11
§ 782.07, Fla. Stat. . . . . . . . . . . . . . . . . . . . . . . . 2, 10
§ 782.071, Fla. Stat. . . . . . . . . . . . . . . . . . . . . . 10-11
§ 782.071(1)(a), Fla. Stat. . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

c.

Other

U.S. Const. amend. V . . . . . . . . . . . . . . . . 1-2, 7, 15
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . 2, 7, 15

1
The Petitioner, LOGAN BROOKS DRINKARD,
prays the Court to issue its writ of certiorari to review
the opinion of the Eleventh Circuit Court of Appeals
entered in this case on February 1, 2021. (A-3).

D. CITATION TO OPINION BELOW
Drinkard v. Sec’y, Dep’t of Corr., 843 Fed. Appx.
200 (11th Cir. 2021).

E. BASIS FOR JURISDICTION
The jurisdiction of the Court is invoked pursuant
to 28 U.S.C. § 1254 to review the final judgment of the
Eleventh Circuit Court of Appeals.

F.
CONSTITUTIONAL
INVOLVED

PROVISIONS

The Double Jeopardy Clause of the Fifth

2
Amendment to the Constitution, applicable to the
States through the Fourteenth Amendment to the
Constitution, provides that no person shall “be subject
for the same offence to be twice put in jeopardy of life
or limb.”

G. STATEMENT OF THE CASE AND
STATEMENT OF THE FACTS
In 2011, the Petitioner was charged with one
count of vehicular homicide (count one),1 one count of
manslaughter (count two),2 and one count of racing on
a highway (count three).3

(A-18-22).

The charges

stemmed from a vehicle accident that occurred on
November 26, 2011. Germaine Bindi died as a result

1

See § 782.071(1)(a), Fla. Stat.

2

See § 782.07, Fla. Stat.

3

See § 316.191(2)(a), Fla. Stat.

3
of the accident. Prior to trial, the prosecution conceded
that count one and count two concerned “the same set
of facts” (i.e., the death of Mrs. Bindi) and that if the
Petitioner

was

convicted

of

both

counts,

the

prosecution “would only be able to proceed to
sentencing on one of the two” counts. (A-23-24).
The case proceeded to a jury trial in June of
2013. At the conclusion of the trial, the jury found the
Petitioner: (1) guilty of reckless driving – a lesser
offense of vehicular homicide (count one); (2) guilty as
charged of manslaughter (count two); and (3) not guilty
of racing on a highway (count three). (A-25-26).
Following the verdict, the Petitioner timely filed
a motion for arrest of judgment arguing that
constitutional double jeopardy principles prohibited
him

from

being

convicted/sentenced

on

the

manslaughter count in light of the jury’s acquittal on

4
the vehicular homicide count. A hearing was held on
the motion on August 29, 2013. Although the trial
court denied the motion, the trial court commented
that

“both

sides

have

given

very

persuasive

arguments” and the trial court concluded that the
matter was one of “first impression.”
The Petitioner was sentenced on September 4,
2013. For the manslaughter count, the trial court
sentenced the Petitioner to ten years’ imprisonment.
(A-6).4 At the conclusion of the sentencing hearing, the
trial court granted the Petitioner’s motion for bail
pending appeal, stating “[t]here is a very important
issue on appeal, I understand from our hearing on the
motion for judgment – arrested judgment . . . .”

The trial court did not impose a sentence for the
reckless driving count because the trial court concluded
that double jeopardy principles prohibited the Petitioner
from being convicted/sentenced for both the manslaughter
count and the reckless driving count.
4

5
On direct appeal, the Florida First District
Court of Appeal affirmed the double jeopardy claim
without discussion. (A-7). However, the appellate
court reversed for a new sentencing hearing because
the trial court improperly considered acquitted conduct
when imposing the Petitioner’s sentence. (A-7).
The Petitioner thereafter timely filed a petition
pursuant to 28 U.S.C. § 2254. (A-7). In his § 2254
petition, the Petitioner again raised his double
jeopardy claim. On April 29, 2019, the magistrate
judge

issued

a

report

and

recommendation

recommending that the Petitioner’s § 2254 petition be
denied. On June 5, 2019, the district court denied the
Petitioner’s § 2254 petition.

The Eleventh Circuit

Court of Appeals subsequently granted a certificate of
appealability, but the court later affirmed the denial of
the Petitioner’s § 2254 petition. (A-3-17).

6
H. REASON FOR GRANTING THE WRIT
The Court should resolve the following
question for which the courts in this country are
split: in a case where the prosecution charged
both a greater offense and a lesser included
offense in the same charging document, and
where the jury found the Petitioner guilty of the
greater offense – but not guilty of the lesser
included offense – do constitutional double
jeopardy principles prohibit a conviction on the
greater offense in light of the jury’s not guilty
verdict for the lesser included offense.
The prosecution charged the Petitioner with
both vehicular homicide (count one) and manslaughter
(count two). (A-18-22). Counts one and two involved a
single death that occurred during a single criminal
episode. The Petitioner notes that the prosecution
chose to charge the vehicular homicide as count one –
even though vehicular homicide is a lesser offense of
manslaughter (count two). The prosecution also chose
to charge these two counts as separate counts – even
though Florida law is clear that if found guilty as

7
charged for both counts, the Petitioner could be
convicted and sentenced for only one of these counts
(pursuant

to

constitutional

double

jeopardy

principles).5 In fact, prior to trial, the Petitioner filed
a motion for a statement of particulars, and at the
hearing on the motion, the prosecution conceded that
count one and count two concerned “the same set of
facts” (i.e., the death of Germaine Bindi) and that if the
Petitioner

was

convicted

of

both

counts,

the

prosecution “would only be able to proceed to
sentencing on one of the two” counts:
MS. KINSEY [the prosecutor]:
And if it helps, Mr. Wade, as an officer of
the court, I can tell you that the facts of
the reckless driving for Count 1 and
Count 2 are the same set of facts, which
is what I think you were trying to
determine.
MR. WADE [defense counsel for
5

See U.S. Const. amends. V & XIV.

8
the Petitioner]:
So it’s the State’s
representation then that the factual basis
of both would be the same?
MS. KINSEY: Yes. It’s based on
the same set of facts –
MR. WADE: Okay.
MS. KINSEY: – which I think will
clear a lot up for you. And I have no
problem with that, announcing that. And
ultimately, if he is convicted of both
counts, vehicular homicide and
manslaughter, we would only be able to
proceed to sentencing on one of the two
cases.
THE COURT:
Yeah.
correct. It’s one death right?

That’s

MS. KINSEY: Yes, sir.
THE COURT: Right. He can’t be
convicted of both.
MS. KINSEY: Right.
(A-23-24) (emphasis added).
At the conclusion of the trial, the jury returned
a verdict of guilty as charged for the manslaughter

9
count, but the jury acquitted the Petitioner of the
vehicular homicide count (and instead found the
Petitioner guilty of the lesser offense of reckless
driving).

(A-25-26).

The question in this case is

whether constitutional double jeopardy principles
prohibit the Petitioner from being convicted/sentenced
on the manslaughter count in light of the jury’s
acquittal on the vehicular homicide count.
“Vehicular homicide is a lesser included offense
of manslaughter by culpable negligence.” Burford v.
State, 8 So. 3d 474, 480 (Fla. 4th DCA 2009) (citations
omitted). “As such, a defendant may be charged with,
but not convicted of, both vehicular homicide and
manslaughter for a single death.”

Id. (citations

omitted).6
Had the jury returned a guilty verdict for both
manslaughter and vehicular homicide, then the Petitioner
could only have been convicted/sentenced for the greater
6

10
In McCreary v. State, 371 So. 2d 1024, 1026 (Fla.
1979), the Florida Supreme Court explained that
manslaughter requires a greater level of culpability
than vehicular homicide:
The legislature, by enacting section
782.071, Florida Statutes (1975), did not
intend only to reduce the crime of
manslaughter by culpable negligence in
the operation of a motor vehicle to a
third-degree felony identified as vehicular
homicide, but rather intended and did
create a lesser included offense with a
lesser standard of proof required for
conviction.
Manslaughter is the killing of a
human being by the act, procurement, or
culpable negligence of another, without
lawful justification. s. 782.07, Fla. Stat.
(1975). We have repeatedly said that the
culpable conduct necessary to sustain
proof of manslaughter under section
782.07 must be of a gross and flagrant
character, evincing reckless disregard of
human life, or of the safety of persons
exposed to its dangerous effects, or there
is that entire want of care which would

offense (manslaughter).

11
raise the presumption of a conscious
indifference to consequences, or which
shows wantonness or recklessness, or a
grossly careless disregard of the safety
and welfare of the public, or that reckless
indifference to the rights of others which
is equivalent to an intentional violation of
them. Filmon v. State, 336 So. 2d 586
(Fla. 1976); Miller v. State, 75 So. 2d 312
(Fla. 1954); Preston v. State, 56 So. 2d
543 (Fla. 1952).
Section 782.071 provides:
“Vehicular homicide” is the
killing of a human being by
the operation of a motor
vehicle by another in a
reckless manner likely to
cause the death of, or great
bodily harm to, another.
Vehicular homicide is a
felony of the third degree,
punishable as provided in s.
775.082, s. 775.083, or s.
775.084.
The legislature did not intend the word
“reckless” used in the vehicular homicide
statute to mean the same thing as the
word “culpable” used in the manslaughter
statute. Had the legislature intended
that vehicular homicide and
manslaughter be the same offense with

12
the same standard of proof and only that
there be a reduced penalty for the former,
then it simply could have provided that
vehicular homicide is the killing of a
human being by the operation of a motor
vehicle in a culpably negligent manner.
Certainly, it is within the authority
of the legislature to make punishable as
a third-degree felony reckless driving
which results in the killing of a human
being where the degree of negligence falls
short of culpable negligence but where
the degree of negligence is more than a
mere failure to use ordinary care. The
present case is a good example of why the
legislature would enact such a law. The
State’s evidence in the present case is not
sufficient to establish that the
defendant’s conduct was of such a gross
and flagrant character as to support a
finding of culpability sufficient to sustain
a conviction for manslaughter. The
evidence, however, does show that the
defendant killed another human being by
the operation of a motor vehicle in “a
reckless manner likely to cause the death
of, or great bodily harm to, another” and
is sufficient to support a conviction for
vehicular homicide.
(Emphasis added) (footnote omitted). Thus, in the
instant case, because the jury acquitted the Petitioner

13
of

vehicular

manslaughter

homicide
–

–

a

constitutional

lesser

offense

double

of

jeopardy

principles prohibit the Petitioner from being convicted
of manslaughter.7
In Ohio v. Johnson, 467 U.S. 493, 501 (1984),
the Court cited its previous decision in Brown v. Ohio,
432 U.S. 161 (1977), and stated that “the Double
Jeopardy Clause prohibits prosecution of a defendant
for a greater offense when he has already been tried
and acquitted or convicted on the lesser included
offense.”

Pursuant to Johnson and Brown, the

By analogy, if the prosecution charges a defendant
with second-degree murder in count one and first-degree
murder in count two – in a case involving a single murder
– and if the jury returns a not guilty verdict for the seconddegree murder count and a guilty verdict for the firstdegree murder count, the Petitioner submits that
constitutional double jeopardy principles would require that
the first-degree murder verdict be vacated (in light of the
jury’s acquittal on the second-degree murder count – a
lesser offense of first-degree murder).
7

14
Petitioner

has

a

valid/viable

double

jeopardy

argument.
But in the years since Johnson and Brown were
decided, the courts of this country have issued
conflicting decisions on the scope of the Constitution’s
double jeopardy protection.

The Eleventh Circuit

Court of Appeals falls on one side of the split. In its
decision below, the Eleventh Circuit held that
“Drinkard’s

claim

raises

essentially

the

same

double-jeopardy argument rejected by the Supreme
Court in Johnson.” (A-13-14). However, the facts of
Johnson and the instant case are different in one key
respect. The facts of Johnson were as follows:
Respondent Kenneth Johnson was
indicted by an Ohio grand jury for four
offenses, ranging from murder to grand
theft, as a result of the killing of Thomas
Hill and the theft of property from Hill’s
apartment. Respondent offered to plead
guilty to charges of involuntary

15
manslaughter and grand theft, but
pleaded not guilty to charges of murder
and aggravated robbery. Over the State’s
objection, the trial court accepted the
“guilty” pleas to the lesser offenses, and
then granted respondent’s motion to
dismiss the two most serious charges on
the ground that because of his guilty
pleas, further prosecution on the more
serious offenses was barred by the double
jeopardy prohibitions of the Fifth and
Fourteenth Amendments.
Johnson, 467 U.S. at 494. As explained by the Court:
Here respondent offered only to resolve
part of the charges against him, while the
State objected to disposing of any of the
counts against respondent without a trial.
Id. at 501 (emphasis added). In contrast, in the instant
case, it was the State who insisted on proceeding to a
trial

on

both

charges

(i.e.,

both

the

greater

manslaughter charge and the lesser vehicular homicide
charge), and the trial resulted in the Petitioner being
acquitted by the jury of the lesser vehicular homicide
offense.

16
On the other side of the split are the decisions in
Hicks v. State, 414 So. 2d 1137 (Fla. 3d DCA 1982),
Perkins v. Williams, 424 So. 2d 990 (Fla. 5th DCA
1983), and People v. Belvin, 366 N.Y.S.2d 893 (N.Y.
App. Div. 1975).

In Hicks, the appellate court

considered the exact scenario presented in the instant
case:
It should be noted, however, that
there may be some real risks involved for
the state, and seemingly very little
advantage, where the state decides, as
here, to charge both a greater and a
lesser included offense in the same
indictment or information.
If, for
example, the jury convicts on the greater
offense, but acquits on the lesser included
offense, there is a very real question as to
whether the conviction on the greater
offense can stand as the jury has, in fact,
acquitted the defendant of an essential
element of the greater offense. See e.g.,
Mahaun v. State, 377 So. 2d 1158, 1161
(Fla. 1979) (greater offense conviction of
third degree murder reversed because
jury acquitted defendant on the lesser
included offense, to wit: the underlying

17
felony involved in the third degree
murder charge).
Hicks, 414 So. 2d at 1141 (footnote omitted). However,
in Hicks, the appellate court was not required to
resolve this issue because the defendant did not raise
the claim on appeal (i.e., although defendant Rios
attacked his conviction for second-degree grand theft
based on double jeopardy grounds, defendant Hicks did
not attack his robbery conviction on the basis that he
was acquitted of grand theft: “We need not resolve
these problems in this case, however, as the issue is not
presented here in any form by any of the defendants;
such questions must be left for another day with only
a red flag warning as to the possible dangers involved
for the state in charging greater and lesser included
offenses in a single indictment or information.”). Id.
(emphasis added).

18
In Perkins, however, the appellate court
answered the question left open in Hicks. In Perkins,
the prosecution charged the defendant with both
robbery and theft based on a single taking. The jury
could not reach a verdict on the robbery charge
(resulting in a hung jury/mistrial), but the jury
acquitted the defendant on the theft charge. In light of
the acquittal on the theft charge, the appellate court
held that constitutional double jeopardy principles
prohibited the defendant from being retried on the
robbery charge:
As the petitioner observes, the state
attorney, in making the decision to
separately charge him with grand theft,
took the risk that an acquittal thereon
would defeat the primary charge of
robbery.
Perkins, 424 So. 2d at 991 (emphasis added) (citation
omitted).

19
As in Perkins, in the instant case, the
prosecution decided to charge both a greater offense
and a lesser included offense in the same charging
document – the prosecution charged the Petitioner
with both vehicular homicide (count one) and
manslaughter (count two). Moreover, the prosecution
chose to charge the vehicular homicide as count one –
even though vehicular homicide is the lesser offense of
manslaughter (count two). At the conclusion of the
trial, the jury returned a verdict of guilty as charged
for the manslaughter count, but the jury acquitted the
Petitioner of the vehicular homicide count (and instead
found the Petitioner guilty of the lesser offense of
reckless driving).

Pursuant to Hicks and Perkins,

because the jury acquitted the Petitioner of vehicular
homicide – a lesser offense of manslaughter – the
Petitioner submits that constitutional double jeopardy

20
principles prohibit him from being convicted of
manslaughter.

See Hicks, 414 So. 2d at 1140

(“[A]cquittal on the lesser offense would bar, on double
jeopardy grounds, a subsequent prosecution for the
greater offense.”).
Finally, in Belvin, the appellate court reached a
similar conclusion:
[T]he acquittal of the lesser included
offense, coupled with the conviction of the
higher offenses, constitutes an
inconsistent and repugnant verdict.
Since a retrial of the counts charging
robbery in the first and second degrees
would necessarily include robbery in the
third degree, as to which crime there has
been an acquittal, a conviction of either of
the higher crimes would constitute double
jeopardy as to robbery in the third degree
and, therefore, the counts for first and
second degree cannot be resubmitted.
Consequently, the verdict as to the two
robbery convictions cannot stand.
Belvin, 366 N.Y.S.2d at 894 (emphasis added). See also
Acquah v. State, 686 A.2d 690, 698-99 (Md. Ct. Spec.

21
App. 1996) (“Acquah’s second theory turns on a double
jeopardy analysis. She argues that bribery is a lesser
offense included in the personal record count. Her
acquittal on the lesser included offense, she contends,
mandates acquittal on the greater offense. . . .
Although interpreting the evidence is the province of
the jury, if the crimes charged in both counts were the
same, Acquah could not be convicted of one and
acquitted of the other. . . . If elements of the first count
are entirely contained in the second count, then
acquittal on the first requires acquittal on the second.”)
(citations omitted) (footnote omitted).
Thus, pursuant to Hicks, Perkins, and Belvin,
the Petitioner maintains that the trial court erred by
denying the Petitioner’s motion for arrest of judgment.
As explained by the court in Perkins, “the state
attorney, in making the decision to separately charge

22
[the Petitioner] with [vehicular homicide], took the risk
that an acquittal thereon would defeat the primary
charge of [manslaughter.]” Perkins, 424 So. 2d at 991.8
By granting the petition for writ of certiorari in
the instant case, the Court will have the opportunity to
resolve the split in authority cited above and consider
the important question presented in this case. The
split of authority is clear and in present need of
resolution before the split widens even more.

The prosecution could have elected to charge the
Petitioner with a single count of manslaughter. Because
vehicular homicide is a lesser offense of manslaughter, the
prosecution also had the option of seeking a jury instruction
on the lesser offense of vehicular homicide (i.e., in the event
that the prosecution could not prove the heightened degree
of negligence necessary to prove manslaughter, the
prosecution could have sought a conviction for the lesser
offense of vehicular homicide – which involves a lesser
degree of negligence, see McCreary, 371 So. 2d at 1026).
But in making the decision to separately charge the
Petitioner with vehicular homicide, the prosecution took the
risk that an acquittal thereon would defeat the primary
charge of manslaughter (as occurred in this case).
8

23
I. CONCLUSION
The Petitioner requests the Court to grant the
petition for writ of certiorari.
Respectfully Submitted,
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

